                             FARM CREDIT ADMINISTRATION

                       I
                       NDEPENDENTACCOUNTANT’  SREPORT
                            ON AGREED-UPON PROCEDURES:
                          FEDERAL INFORMATION SECURITY
                           MANAGEMENT ACT EVALUATION

                            For the Year Ending September 30, 2005




HARPER, RAINS, KNIGHT & COMPANY, P.A.
   CERTIFIED PUBLIC ACCOUNTANTS
       RIDGELAND, MISSISSIPPI
                    Agreed-upon Procedures Report: FISMA Evaluation



Table of Contents
Executive Summary                                                      2

Independent Accountant's Report on Applying Agreed-Upon Procedures     3

Exhibit A –Procedures and Results                                      4

Exhibit B –OMB FISMA Reporting Template                                8

Appendix A –Agency Systems                                            12

Appendix B –Acronyms and Abbreviations                                14




Prepared by Harper, Rains, Knight & Company, P.A.,                     1
for the FCA Office of Inspector General
                      Agreed-upon Procedures Report: FISMA Evaluation



Executive Summary
This report includes the agreed-upon procedures and the results from applying those procedures,
specified by the Farm Credit Administration's (FCA) Office of Inspector General, solely to assist
wi ththea nn uale val
                    ua ti
                        onofFCA’   ss ecur
                                         itypr ograma  ndpr a cticesandr eporting requirements
of the Federal Information Security Management Act (FISMA) submitted to the Office of
Management and Budget (OMB).

FCA is an independent agency in the executive branch of the U. S. Government. It is responsible
for the regulation and examination of the banks, associations, and related entities that
collectively comprise what is known as the Farm Credit System (System). FCA promulgates
regulations to implement the Farm Credit Act of 1971, and examines System institutions for
compliance with the Act, regulations, and safe and sound banking practices.

The system evaluations were performed following guidance issued by the National Institute of
Standards and Technology (NIST) Self-assessment guide. The Office of Inspector General,
determined the critical elements that represent essential tasks for establishing compliance with
FISMA, and the guidelines issued by OMB, the Government Accountability Office (GAO), the
Chief Information Officer (CIO) Council, and applicable NIST guidance for each control
category, including:

          documented security policies;
          documented security procedures;
          implemented security procedures and controls;
          tested and reviewed security procedures and controls; and
          fully integrated security procedures and controls.

No exceptions were noted during the performance of the agreed-upon procedures for determining
FCA’ scompl iancewi thFI SMA.

Our procedures were performed in accordance with attestation standards established by the
American Institute of Certified Public Accountants and Government Auditing Standards issued
by the Comptroller General of the United States.




Prepared by Harper, Rains, Knight & Company, P.A.,                                              2
for the FCA Office of Inspector General
         Independent Accountant's Report on Applying Agreed-Upon Procedures


The Inspector General
Farm Credit Administration

We have performed the procedures outlined in Exhibit A that were agreed to by the Farm Credit
Administration's (FCA or Agency) Office of Inspector General, solely to assist with the annual
eva l
    ua t
       iono  fFCA’  ss ecur i
                            typr og r
                                    a ma  ndpr  acticesa ndr eport
                                                                 ingr e quir
                                                                           eme nt
                                                                                soft  heFe  de r
                                                                                               al
Information Security Management Act (FISMA) submitted to OMB. FCA’             s management is
responsible for documented security policies, documented security procedures, implemented
security procedures and controls, tested and reviewed security procedures and controls, and fully
integrated security procedures and controls for its mission critical systems listed below. This
engagement to apply agreed-upon procedures was conducted in accordance with the attestation
standards established by the American Institute of Certified Public Accountants and Government
Auditing Standards issued by the Comptroller General of the United States. The sufficiency of
these procedures is solely the responsibility of the Inspector General of FCA. Consequently, we
make no representation regarding the sufficiency of the procedures described below either for the
purpose for which this report has been requested or for any other purpose.

The agreed-upon procedures and related results of procedures are included in the attached
Exhibit A. The OMB FISMA Reporting Template, a required document of these agreed-upon
procedures, is included in Exhibit B.

Our procedures covered the agency systems included in the attached Appendix A.

We were not engaged to, and did not, perform an examination or a review, the objective of which
would be the expression of an opinion on the FCA's security program and practices.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the FCA Inspector General and is
not intended to be and should not be used by anyone other than the specified party. This report
should not be used by those who have not agreed to the procedures and taken responsibility for
the sufficiency of the procedures for their purposes.




September 20, 2005



       Harpe
           r,Rains
                 ,Knight&Company,P.
                                  A.•Cert
                                        if
                                         iedPubli
                                                cAccountant
                                                          s•Cons
                                                               ultants
  OneHundr
         edConcours
                  e•1052Highl
                            andColonyPar
                                       kway,Suite100•Ridgel
                                                          and,Mis
                                                                sissi
                                                                    ppi391
                                                                         57
            Tel
              ephone601.
                       605.
                          0722•Facsi
                                   mil
                                     e601.605.
                                             0733•www. hrkc
                                                          pa.
                                                            com
Pages 4 through 7 removed
                                                    Agreed-upon Procedures Report: FISMA Evaluation


Exhibit B –OMB FISMA Reporting Template

                                                                                                 Section C: Inspector General. Questions 1, 2, 3, 4, and 5.

                                                                                                        Agency Name: Farm Credit Administration

                                                                                                                       Question 1 and 2


1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an agency. By FIPS
199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in this evaluation for each classification below (a., b., and c.).

                To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
                1) Continue to use NIST Special Publication 800-26, or,
                2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53

                Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency, therefore, self reporting by contractors does not meet the requirements of
                law. Self reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.


2. For each part of this question, identify actual performance in FY 05 by risk impact level and bureau, in the format provided below. From the representative subset of systems evaluated, identify the number of systems which have
completed the following: have a current certification and accreditation , a contingency plan tested within the past year, and security controls tested within the past year.

                                                                                                          Question 1                                                                                     Question 2
                                                                              a.                             b.                             c.                              a.                            b.                           c.
                                                                     FY 05 Agency Systems             FY 05 Contractor            FY 05 Total Number of         Number of systems certified   Number of systems for      Number of systems for which
                                                                                                          Systems                        Systems                    and accredited          which security controls have contingency plans have been
                                                                                                                                                                                            been tested and evaluated in  tested in accordance with
                                                                                                                                                                                                    the last year            policy and guidance


                                        FIPS 199 Risk Impact          Total          Number          Total         Number                         Number           Total        Percent of       Total
Bureau Name                                    Level                 Number         Reviewed        Number        Reviewed       Total Number    Reviewed         Number          Total         Number        Percent of Total Total Number Percent of Total
Farm Credit Administration                High                                 2                2            2               2              4               4              3         75.0%                3            75.0%              3           75.0%
                                          Moderate                             1                1                                           1               1                          0.0%               1           100.0%              1          100.0%
                                          Low                                                                                               0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Not Categorized                                                                                   0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                       Sub-total                               3                3            2               2              5               5              3         60.0%                4            80.0%              4           80.0%
Bureau                                    High                                                                                              0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Moderate                                                                                          0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Low                                                                                               0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Not Categorized                                                                                   0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                       Sub-total                               0                0            0               0              0               0              0     #DIV/0!                  0      #DIV/0!                  0    #DIV/0!
Bureau                                    High                                                                                              0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Moderate                                                                                          0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Low                                                                                               0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Not Categorized                                                                                   0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                       Sub-total                               0                0            0               0              0               0              0     #DIV/0!                  0      #DIV/0!                  0    #DIV/0!
Bureau                                    High                                                                                              0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Moderate                                                                                          0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Low                                                                                               0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Not Categorized                                                                                   0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                       Sub-total                               0                0            0               0              0               0              0     #DIV/0!                  0      #DIV/0!                  0    #DIV/0!
Bureau                                    High                                                                                              0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Moderate                                                                                          0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Low                                                                                               0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Not Categorized                                                                                   0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                       Sub-total                               0                0            0               0              0               0              0     #DIV/0!                  0      #DIV/0!                  0    #DIV/0!
Bureau                                    High                                                                                              0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Moderate                                                                                          0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Low                                                                                               0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Not Categorized                                                                                   0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                       Sub-total                               0                0            0               0              0               0              0     #DIV/0!                  0      #DIV/0!                  0    #DIV/0!
Bureau                                    High                                                                                              0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Moderate                                                                                          0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Low                                                                                               0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Not Categorized                                                                                   0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                       Sub-total                               0                0            0               0              0               0              0     #DIV/0!                  0      #DIV/0!                  0    #DIV/0!
Bureau                                    High                                                                                              0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Moderate                                                                                          0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Low                                                                                               0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                          Not Categorized                                                                                   0               0                    #DIV/0!                         #DIV/0!                       #DIV/0!
                                       Sub-total                               0                0            0               0               0              0              0    #DIV/0!                   0      #DIV/0!                    0      #DIV/0!
Agency Totals                              High                                2                2            2               2               4              4              3          75.0%               3           75.0%                 3            75.0%
                                           Moderate                            1                1            0               0               1              1              0          0.0%                1         100.0%                  1          100.0%
                                           Low                                 0                0            0               0               0              0              0     #DIV/0!                  0      #DIV/0!                    0      #DIV/0!
                                           Not Categorized                     0                0            0               0               0              0              0     #DIV/0!                  0      #DIV/0!                    0      #DIV/0!
                                       Total                                   3                3            2               2               5              5              3          60.0%               4           80.0%                 4            80.0%




Prepared by Harper, Rains, Knight & Company, P.A.,                                                                                                                                                                                 8
for the FCA Office of Inspector General
                                                       Agreed-upon Procedures Report: FISMA Evaluation

                                                                                                                           Question 3

I
nthef
    orma
       tbe
         low,e
             val
               uat
                 ethea
                     genc
                        y’sove
                             rsi
                               ghtofc
                                    ont
                                      rac
                                        tors
                                           yst
                                             ems
                                               ,anda
                                                   genc
                                                      ysys
                                                         temi
                                                            nve
                                                              ntor
                                                                 y.

                                       The agency performs oversight and evaluation to ensure information systems used or operated by a contractor of the agency or
                                       other organization on behalf of the agency meet the requirements of FISMA, OMB policy and NIST guidelines, national security
                                       policy, and agency policy. Self-reporting of NIST Special Publication 800-26 requirements by a contractor or other organization
                                       is not sufficient, however, self-reporting by another Federal agency may be sufficient.

                  3.a.                 Response Categories:                                                                                                                 - Almost Always, for example, approximately 96-100% of the time
                                            - Rarely, for example, approximately 0-50% of the time
                                            - Sometimes, for example, approximately 51-70% of the time
                                            - Frequently, for example, approximately 71-80% of the time
                                            - Mostly, for example, approximately 81-95% of the time
                                            - Almost Always, for example, approximately 96-100% of the time
                                       The agency has developed an inventory of major information systems (including major national security systems) operated by or
                                       under the control of such agency, including an identification of the interfaces between each such system and all other systems or
                                       networks, including those not operated by or under the control of the agency.

                                       Response Categories:
                 3.b.                                                                                                                                                            - Approximately 96-100% complete
                                            - Approximately 0-50% complete
                                            - Approximately 51-70% complete
                                            - Approximately 71-80% complete
                                            - Approximately 81-95% complete
                                            - Approximately 96-100% complete

                  3.c.                 The OIG generally agrees with the CIO on the number of agency owned systems.                                                                                            Yes

                                       The OIG generally agrees with the CIO on the number of information systems
                 3.d.                                                                                                                                                                                          Yes
                                       used or operated by a contractor of the agency or other organization on behalf of the agency.

                  3.e.                 The agency inventory is maintained and updated at least annually.                                                                                                       Yes


                  3.f.                 The agency has completed system e-authentication risk assessments.                                                                                                      Yes

                                                                                                                           Question 4

Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency wide plan of action and milestone (POA&M) process. Evaluate the degree to which the following
statements reflect the status in your agency by choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

      -   Rarely, for example, approximately 0-50% of the time
      -   Sometimes, for example, approximately 51-70% of the time
      -   Frequently, for example, approximately 71-80% of the time
      -   Mostly, for example, approximately 81-95% of the time
      -   Almost Always, for example, approximately 96-100% of the time


                                       The POA&M is an agency wide process, incorporating all known IT security weaknesses associated with information systems
                  4.a.                                                                                                                                                      - Almost Always, for example, approximately 96-100% of the time
                                       used or operated by the agency or by a contractor of the agency or other organization on behalf of the agency.


                                       When an IT security weakness is identified, program officials (including CIOs, if they own or operate a system) develop,
                 4.b.                                                                                                                                                       - Almost Always, for example, approximately 96-100% of the time
                                       implement, and manage POA&Ms for their system(s).



                  4.c.                 Program officials, including contractors, report to the CIO on a regular basis (at least quarterly) on their remediation progress.   - Almost Always, for example, approximately 96-100% of the time



                 4.d.                  CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.                                         - Almost Always, for example, approximately 96-100% of the time



                  4.e.                 OIG findings are incorporated into the POA&M process.                                                                                - Almost Always, for example, approximately 96-100% of the time



                                       POA&M process prioritizes IT security weaknesses to help ensure significant IT security weaknesses are addressed in a timely
                  4.f.                                                                                                                                                      - Almost Always, for example, approximately 96-100% of the time
                                       manner and receive appropriate resources

Comments:



                                                                                                                           Question 5


OI GAs  ses
          smentoftheCer
                      tif
                        ica
                          tionandAccr e
                                      dit
                                        ati
                                          onPr oc
                                                ess.OMBi srequest
                                                                ingIGstoprovideaqual
                                                                                   it
                                                                                    ati
                                                                                      veass
                                                                                          essmentoftheagency’
                                                                                                            sce r
                                                                                                                tif
                                                                                                                  ica
                                                                                                                    ti
                                                                                                                     ona ndaccr
                                                                                                                              edi
                                                                                                                                tat
                                                                                                                                  ionproce
                                                                                                                                         s s
                                                                                                                                           ,inc
                                                                                                                                              ludingadher
                                                                                                                                                        encetoexisti
                                                                                                                                                                   ngpoli
                                                                                                                                                                        cy,guida
                                                                                                                                                                               nce,andst
                                                                                                                                                                                       a ndards.
Age nc ie
        sshal
            lfol
               lowNI STSpecialPubl
                                 ica
                                   tion800-37,“Guidefort
                                                       heSecuri
                                                              tyCert
                                                                   ifi
                                                                     cati
                                                                        onandAc cr
                                                                                 edi
                                                                                   tat
                                                                                     ionofFeder
                                                                                              alInformat
                                                                                                       ionSyst
                                                                                                             e ms”(Ma y,2004)f
                                                                                                                             orce
                                                                                                                                rti
                                                                                                                                  fica
                                                                                                                                     tionandaccr
                                                                                                                                               editat
                                                                                                                                                    ionworkinit
                                                                                                                                                              iat
                                                                                                                                                                eda f
                                                                                                                                                                    terMay,2004.Thisinc
                                                                                                                                                                                      lude suseofthe
FIPS199(  Februa
               ry,2004)
                      ,“Sta
                          nda r
                              dsforSecuri
                                        tyCa t
                                             egori
                                                 zati
                                                    onofFede
                                                           ralInfor
                                                                  ma t
                                                                     ionandInfor
                                                                               mati
                                                                                  onSyste
                                                                                        ms ,
                                                                                           ”todeter
                                                                                                  mi neanimpactlevel
                                                                                                                   ,aswe l
                                                                                                                         lasass
                                                                                                                              oci
                                                                                                                                atedNISTdoc umentsusedasguidanc
                                                                                                                                                              ef orcomple
                                                                                                                                                                        tingri
                                                                                                                                                                             skass
                                                                                                                                                                                 essmentsa ndsecur
                                                                                                                                                                                                 ity
plans .


                                       Assess the overall quality of the Department's certification and accreditation process.
                                       Response Categories:
                                             - Excellent
                                             - Good
                                                                                                                                                                            - Good
                                             - Satisfactory
                                             - Poor
                                             - Failing

Comments: In FY 2005, FCA contracted with Pinnacle CSI to perform an assessment of FCA's certification and accreditation policies and procedures to provide management with a level of confidence that their systems and applications operate
effectively and that the proper policies and procedures to mitigate risks to an acceptable level are in place. In addition, Pinnacle CSI performed a Certification and Accreditation (C&A) on FCA's Windows 2003 System in accordance with NIST
Special Publication 800-37. FCA reviews third party documents (e.g. SAS 70 reports) for evidence of C&A's on their contractor systems. During our evaluation FCA indicated they plan to conduct formal C&A's on two more of their systems in FY
2006. In FY 2005 FCA's C&A policies, procedures, and guidelines were updated to adhere to NIST Special Publication 800-37.




Prepared by Harper, Rains, Knight & Company, P.A.,                                                                                                                                                                                    9
for the FCA Office of Inspector General
                                          Agreed-upon Procedures Report: FISMA Evaluation

                                                                      Section B: Inspector General. Question 6, 7, 8, and 9.

                                                                            Agency Name: Farm Credit Administration

                                                                                            Question 6
                        Is there an agency wide security configuration policy?
        6.a.                                                                                                                                                Yes
                        Yes or No.
                        Comments:

                        Configuration guides are available for the products listed below. Identify which software is addressed in the agency wide security configuration policy. Indicate
        6.b.            whether or not any agency systems run the software. In addition, approximate the extent of implementation of the security configuration policy on the systems
                        running the software.

                                                                                                                               Approximate the extent of implementation of the security
                                                                                                                               configuration policy on the systems running the software.

                                                                                                                           Response choices include:
                                                                                                                           - Rarely, or, on approximately 0-50% of the
                                                                                                                             systems running this software
                                                                                                                           - Sometimes, or on approximately 51-70% of
           Product                                                                                                           the systems running this software
                                                                                                                           - Frequently, or on approximately 71-80% of
                                                                     Addressed in agencywide
                                                                                                                             the systems running this software
                                                                             policy?             Do any agency systems run - Mostly, or on approximately 81-95% of the
                                                                                                       this software?        systems running this software
                                                                                                                           - Almost Always, or on approximately 96-100% of the systems
                                                                                 Yes, No,                                  running this software
                                                                                 or N/A.                 Yes or No.
                                                                                                                                     - Almost Always, or on approximately 96-100% of the
               Windows XP Professional
                                                                                   Yes                       Yes               systems running this software
                                                                                                                                     - Almost Always, or on approximately 96-100% of the
               Windows NT
                                                                                   Yes                       Yes               systems running this software
                                                                                                                                     - Almost Always, or on approximately 96-100% of the
               Windows 2000 Professional
                                                                                   Yes                       Yes               systems running this software
                                                                                                                                     - Almost Always, or on approximately 96-100% of the
               Windows 2000 Server
                                                                                   Yes                       Yes               systems running this software
                                                                                                                                     - Almost Always, or on approximately 96-100% of the
               Windows 2003 Server
                                                                                   Yes                       Yes               systems running this software

               Solaris
                                                                                   N/A

               HP-UX
                                                                                   N/A

               Linux
                                                                                   N/A
                                                                                                                                     - Almost Always, or on approximately 96-100% of the
               Cisco Router IOS
                                                                                   Yes                       Yes               systems running this software
                                                                                                                                     - Almost Always, or on approximately 96-100% of the
               Oracle
                                                                                   Yes                       Yes               systems running this software

               Other. Specify:
                                                                                   N/A
Comments:

                                                                                            Question 7

Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.

                        The agency follows documented policies and procedures for identifying and reporting
        7.a.            incidents internally.                                                                                                               Yes
                        Yes or No.
                        The agency follows documented policies and procedures for external reporting to law
        7.b.            enforcement authorities.                                                                                                            Yes
                        Yes or No.
                        The agency follows defined procedures for reporting to the United States Computer
        7.c.            Emergency Readiness Team (US-CERT). http://www.us-cert.gov                                                                          Yes
                        Yes or No.
Comments:




Prepared by Harper, Rains, Knight & Company, P.A.,                                                                                                                      10
for the FCA Office of Inspector General
                          Agreed-upon Procedures Report: FISMA Evaluation

                                                                       Question 8

           Has the agency ensured security training and awareness of all employees, including
           contractors and those employees with significant IT security responsibilities?

           Response Choices include:
           - Rarely, or, approximately 0-50% of employees have sufficient training
                                                                                                            - Almost Always, or approximately 96-100% of employees have
     8      - Sometimes, or approximately 51-70% of employees have sufficient training
                                                                                                           sufficient training
            - Frequently, or approximately 71-80% of employees have sufficient training
            - Mostly, or approximately 81-95% of employees have sufficient training
            - Almost Always, or approximately 96-100% of employees have sufficient training



                                                                       Question 9

           Does the agency explain policies regarding peer-to-peer file sharing in IT security awareness
     9     training, ethics training, or any other agency wide training?                                                                Yes
           Yes or No.




Prepared by Harper, Rains, Knight & Company, P.A.,                                                                                                   11
for the FCA Office of Inspector General
                     Agreed-upon Procedures Report: FISMA Evaluation


Appendix A –Agency Systems

Our procedures were applied to the following agency systems.

1) Major Applications

   a. Federal Financial System (FFS)

        FFS is the major application that supports all FCA core accounting functions
         including budget execution, accounts payable, disbursements, purchasing, travel,
         accounts receivable, general ledger, document tracking, project cost accounting, and
         external reporting. FFS is a mainframe computer financial management system. FFS
         is processed by the United States Geological Survey (USGS)/National Business
         Center (NBC), and American Management Systems, Inc. (AMS). The FFS software
         is owned and maintained by AMS. AMS is responsible for providing development
         activities including regular upgrades, fixes, and requested enhancements to maintain
         the core FFS software. NBC personnel are responsible for defining and developing
         processes to retrieve or receive data from external sources to develop corresponding
         programs that enable FFS to load the data accordingly. FCA’          s FFS s  ecuri
                                                                                           ty
         administrator, located in the Chief Financial Office is responsible for managing
         security access control to the FFS agency application. FFS was placed in production
         in June 2001.

   b. Payroll Services from National Finance Center (NFC)

        USDA's NFC located in New Orleans, Louisiana provides the Personnel/Payroll
         System (PPS) to FCA. NFC provides distributed application and telecommunications
         support for the remote site located in McLean, Virginia. NFC developed a "master
         security plan" for the general support system in New Orleans. FCA's Chief
         Administrative Office maintains a security plan for the remote system at FCA that
         incorporates provisions of the master security plan.

   c. Consolidated Reporting System (CRS)

       CRS is a major application that supports FCA operations. CRS is an Oracle relational
       database containing financial and statistical information on active and inactive System
       institutions. CRS contains three distinct subsystems that are Call Report, Loan Account
       Reporting System (LARS), and Web-based CRS Reports:

        Call Report is comprised of financial information including a statement of condition,
         statement of income, and supporting schedules that is collected quarterly from the
         System institutions. Call Report subsystem is monitored, analyzed, and assessed by
         FCA examiners and financial analysts to ensure that the integrity and confidentiality
         of financial data are maintained.

        LARS database contains specific loans of System lender institutions. Such institutions
         submit the data quarterly to FCA via diskette or zip file. The loan data are loaded
         using SQLLoader, and are then verified and validated by FCA personnel.

        Web-based CRS Reports is an FCA developed application using the JavaScript
         front-end interface and an Oracle database back-end application. The reports are built
Prepared by Harper, Rains, Knight & Company, P.A.,                                          12
for the FCA Office of Inspector General
                    Agreed-upon Procedures Report: FISMA Evaluation

          using e-Reporting Suite, and are available on FCA's Web site. The Freedom of
          Information Act (FOIA) versions of the reports are available to the public. The
          non-FOIA versions of the reports are available to users who are authorized to view
          their institution data.

   d. Lotus Domino (Notes)

       The Notes application is a database system software owned and maintained by FCA.
        The application supports the daily administrative tasks including e-mail, group
        discussion, calendaring and scheduling, database management, forms, and workflow
        of FCA.

2) General Support Systems

   a. Windows 2003 Network

       Windows 2003 is an operating system or the core program of a computer that allows
        the other programs and applications to operate. Windows 2003 is fully integrated with
        networking capabilities and was designed for client/server computing to facilitate user
        workstation connections to servers and the sharing of information and services among
        computers.

       Windows 2003 Server is the primary operating system installed on substantially all
        servers in the FCA network. Additionally, Windows 2000 and XP are installed on
        agency laptop and desktop computers where they function as a client to the FCA
        network as well as a stand-alone operating system for the client hardware. Through
        Windows 2000/XP, users can access network services such as file servers, e-mail, the
        Internet, applications and shared hardware such as printers.




Prepared by Harper, Rains, Knight & Company, P.A.,                                          13
for the FCA Office of Inspector General
                    Agreed-upon Procedures Report: FISMA Evaluation



Appendix B –Acronyms and Abbreviations

AMS          American Management Systems, Inc.
C&A          Certification and Accreditation
CIO          Chief Information Officer
COGCON       Continuity of Government Condition System
CRS          Consolidated Reporting System
FCA          Farm Credit Administration
FFS          Federal Financial System
FISCAM       Federal Information System Controls Audit Manual
FISMA        Federal Information Security Management Act
FOIA         Freedom of Information Act
FY           Fiscal Year
GAO          Government Accountability Office
IT           Information Technology
LARS         Loan Account Reporting System
NBC          National Business Center
NFC          National Finance Center
NIST         National Institute of Standards and Technology
OCAO         Office of the Chief Administrative Officer
OCFO         Office of the Chief Financial Officer
OIG          Office of the Inspector General
OMB          Office of Management and Budget
POA&M        Plan of Action and Milestone
PPS          Personnel/Payroll System
System       Farm Credit System
US-CERT      United States Computer Emergency Readiness Team
USGS         United States Geological Survey




Prepared by Harper, Rains, Knight & Company, P.A.,                    14
for the FCA Office of Inspector General
